OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S USE OF
SYSTEM ADMINISTRATOR
ROLES (EXECUTIVE SUMMARY)
AUDIT REPORT NO. A-000-14-005-P
AUGUST 5, 2014




WASHINGTON, D.C.
This is a summary of our report on the “Audit of USAID’s Use of System Administrator Roles.”
Network and computer systems administration involves planning and coordinating the
installation, testing, operation, and troubleshooting of hardware and software systems. Specific
duties include managing accounts and network rights; developing and documenting system
standard operating procedures; maintaining system configurations; and making sure that
information security and assurance policies are applied strictly.

The Office of Inspector General (OIG), Information Technology Audits Division, performed this
audit to determine whether USAID effectively implemented system administrator roles to protect
against loss, misuse, or unauthorized access to USAID resources. The audit concluded that
USAID has not. We found weaknesses in the Agency’s implementation of system administrator
roles, as well as in the system security plan and the system’s configuration; we also found that
the system did not have a technical manual on how to manage user rights, roles, and privileges.

The report contains five recommendations to address these problems and help strengthen the
administration of USAID’s system administrator roles. Based on our evaluation of management
comments and other correspondence, we acknowledged management decisions on each of the
five and agreed that final action was taken on two.
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
